Case: 21-50479

Document: 00515960194

Page: 1

Date Filed: 07/30/2021

®mtetrSI>tates yiouct ot Appeals
for tfje jfiftfj Circuit
United States Court of Appeals
Fifth Circuit

No. 21-50479

FILED
July 30, 2021

Jaime Luevano

Lyle W. Cayce
Clerk

Petitioner—Appellant,
versus

Gregg Abbott, State of Texas Attorney General;
Governor Rick Perry,
Respondents—Appellees.

Appeal from the United States District Court
for the Westem District of Texas
USDC No. 3:10-CV-128

CLERK’S OFFICE:
Under 5th Cir. R. 42.3, the appeal is dismissed as ofjuly 30,2021,
for want of prosecution. The appellant failed to timely pay docketing fee.

Case: 21-50479

Document: 00515960194

Page: 2

Date Filed: 07/30/2021

No. 21-50479

LYLE W. CAYCE
Clerk of the United States Court
of Appeals for the Fifth Circuit
By:
Lisa E. Ferrara, Deputy Clerk
ENTERED AT THE DIRECTION OF THE COURT

2

Case 3:10-cv-00128-KC Document 7 Filed 05/04/21 Page 1 of 5

IN-XHE-UM-T ED-SFA^-ESDI STRICT-COURT
FOR THE WESTERN DISTRICT OF TEXAS
EL PASO DIVISION
JAIME LUEVANO,
TDCJ No. 1655791,
Petitioner,

§
§
§
§

v.

§

GREG ABBOTT,
Attorney General of Texas, et al.,
Respondent.

§
§
§
§

NO. EP-10-CV-128-KC

MEMORANDUM OPINION
Jaime Luevano moves the Court to re-open his petition for a writ of habeas corpus under
28 U.S.C. § 2254. Pet’r’s Mot., ECF No. 6. His motion is denied for the following reasons.

BACKGROUND
In his petition, Luevano challenged his March 4, 2010 convictions for burglary of a
habitation in cause numbers 20070D04788 and 20070D04789 in the 409th Judicial District Court
of El Paso County, Texas. Luevano v. Abbott. EP-10-CV-128-KC, 2010 WL 1544605, at *1
(W.D. Tex. Apr. 15, 2010). He claimed “the trial court unconstitutionally selected and
empaneled the jurors, the prosecution failed to disclose evidence of false statements by police
officers to the jury, the State fabricated the allegations in the indictment, the State wrongfully
held him in jail for six months after a mistrial, his counsel provided ineffective assistance when
he forced him to testify, and the trial court deprived him of the right to represent himself.” Id.
He conceded “[tjhis petition [was] ahead of time” and a search for his name on the Texas Court
of Criminal Appeals internet site confirmed that he had not yet submitted a petition for
discretionary review or an application for a writ of habeas corpus. Id. (quoting Pet’r’s Pet. 13,
ECF No. 1). So, it plainly appeared from the face of Luevano’s petition that he “had not

Case 3:10-cv-00128-KC Document 7 Filed 05/04/21 Page 2 of 5

presented his claims in a procedurallv propeunanner-te-the-state^-hiighest courlT”~ Id. at *1.
Thus, his petition warranted dismissal for lack of exhaustion so he could pursue his state
remedies and then—if he desired—return to this Court. Id.
The Court accordingly dismissed Luevano’s petition without prejudice on April 15, 2010.
Id.
The Eighth Court of Appeals in El Paso subsequently affirmed Luevano’s convictions.
See Luevano v. State. No 08-10-00154-CR, 2012 WL 1883115 (Tex. App. — El Paso May 23,
2012, pet. ref d) (affirming the conviction for burglary of a habitation with intent to commit an
aggravated sexual assault in 20070D04788); Luevano v. State. No 08-10-00159-CR, 2012 WL
1883117 (Tex. App. — El Paso May 23, 2012, pet. ref d) (affirming the conviction for burglary
of a habitation in 20070D04789).
The Court dismissed Luevano’s next petition for a writ of habeas corpus without
prejudice on March 26, 2014. Luevano v. Stephens. EP-14-CV-20-PRM, 2014 WL 2091362
(W.D. Tex. Mar. 26, 2014). It took this action after Luevano failed to comply with a court order
to submit a completed § 2254 petition which identified his grounds for relief and to provide
evidence of his indigency and support his application to proceed in forma pauperis. Id. at *1.
In his motion to reopen, Luevano claims he heard on the radio that the victim, who was
nine years old at the time of the aggravated assault, “is of age now” and a gang member.1 Pet’r’s

1 See Luevano v. State. 08-10-00154-CR, 2012 WL 1883115, at *1-2 (Tex. App.—El Paso May 23, 2012, pet. ref d)
(“In September 2007, nine-year-old A.C. lived in the home other father along with her grandmother and uncle. ...
In the early morning of September 3, 2007, A.C. awoke because she felt something licking her buttocks. ... At that
point, A.C. screamed, the man ran, and A.C. went to her grandmother’s room. A.C. told her grandmother that
someone had broken into the house and that a man with a ponytail had licked her buttocks. ... The DPS Crime Lab
... determined that the DNA extraction from the buttocks sample contained a mixture of DNA that was consistent
with DNA from both A.C. and Appellant.”)

2

Case 3:10-cv-00128-KC Document 7 Filed 05/04/21 Page 3 of 5

Mot.

live

Death Penalty Act’s three strikes rule to him.2
APPLICABLE LAW
Rule 60(b) of the Federal Rules of Civil Procedure provides a court may grant a party
relief from a judgment or order in limited circumstances:
On motion and upon such terms as are just, the court may relieve a party . . . from
a final judgment, order, or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence which by due diligence could not have
been discovered in time to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or
misrepresentation, or misconduct of an adverse party;

extrinsic),

(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged, or a prior
judgment upon which it is based has been reversed or otherwise
vacated, or it is no longer equitable that the judgment should have
prospective application; or
(6) any other reason justifying relief from the operation of the judgment.
Fed. R. Civ. P. 60(b). Such a motion must be made within a reasonable time and for reasons (1),
(2), and (3) not more than one year after the judgment, order, or proceeding was entered or taken.
Gonzalez v. Crosby. 545 U.S. 524, 528 n. 2 (2005).
ANALYSIS
2 While incarcerated, Luevano has filed at least three civil actions that resulted in strikes after they were dismissed
as frivolous, malicious, or for failure to state a claim. See Luevano v. Bovkin. No. 5:08-CV-l 844 (N.D. Ohio Oct.
31, 2008) (dismissing complaint for failure to state a claim); Luevano v. Richardson. No. 1:08—CV-781 (D.N.M.
Oct. 1, 2008) (dismissing complaint for failure to state a claim); Luevano v. Clinton. No. 2:08—CV—1360 (E.D.N.Y.
Apr. 4, 2008) (dismissing complaint as frivolous); Luevano v. Bd. of Disciplinary App.. No. 5:08-CV-0107 (W.D.
Tex. Mar. 20, 2008) (dismissing complaint as frivolous); Luevano v. Doe. No. L07-CV-1025 (W.D. Tex. Jan. 18,
2008) (dismissing complaint as frivolous); Luevano v. Perry. No. 1:07-CV-1026 (W.D. Tex. Jan. 18, 2008)
(dismissing complaint as frivolous); Luevano v. U.S. President of Am.. No. 08-CV-0053 (D.D.C. Jan. 2, 2008)
(dismissing complaint for failure to state a claim).

3

Case 3:10-cv-00128-KC Document 7 Filed 05/04/21 Page 4 of 5

1544605. He dated and presumably placed his motion to reopen his case in the prison mail
system more than eleven years later, on April 26, 2021. See Spotville v. Cain. 149 F.3d 374, 378
(5th Cir. 1998) (holding § 2254 applications are deemed filed on date the inmate tenders the
petition to prison officials for mailing). Because Luevano did not file his instant motion within a
year after the entry of the final judgment, he could not pursue relief under reasons (1), (2) or (3)
of Rule 60(b). Fed. R. Civ. P. 60(c)(1).
Further, the final judgment in Luevano’s case was neither voided nor satisfied, released,
discharged, reversed or otherwise vacated. Consequently, he also could not obtain relief under
reasons (4) or (5) of Rule 60(b).
Finally, “[wjhile Rule 60(b)(6) is commonly referred to as a grand reservoir of equitable
power to do justice, the rule is only invoked in extraordinary circumstances.” Rocha v. Thaler.
619 F.3d 387, 400 (5th Cir. 2010) (quotation marks and citations omitted); see also Gonzalez.
545 U.S. at 535 (“[Ojur cases have required a movant seeking relief under Rule 60(b)(6) to show
‘extraordinary circumstances’ justifying the reopening of a final judgment.”) (quoting
Ackermann v. United States. 340 U.S. 193, 199 (1950)). “Such circumstances will rarely occur
in the habeas context.” Gonzalez. 545 U.S. at 535.
The fact that Luevano’s victim—a child at the time of the assault—is now an adult is
clearly not an extraordinary circumstance—and not relevant to the resolution of his state criminal
cases through a habeas petition. The fact that Luevano may have received multiple strikes for
filing civil lawsuits—later dismissed because they were frivolous, malicious or failed to state a
claim—is also not an extraordinary circumstance or relevant to the resolution of his state
criminal cases. Carson v. Johnson. 112 F.3d 818, 820 (5th Cir. 1997) (“applying the three strikes

4

Case 3:10-cv-00128-KC Document 7 Filed 05/04/21 Page 5 of 5

to federal habeas corpus.”’) (quoting United States v. Cole. 101 F.3d 1076, 1077 (5th Cir.
1996)). Furthermore, it is simply not reasonable for a petitioner to wait eleven years before
filing a motion for relief from a judgment.
CONCLUSIONS
The Court declines to revisit Luevano’s petition for a writ of habeas corpus—dismissed
over a decade ago—to give him another “bite at the apple.” ABC Utilities Services Inc, v. Orix
Fin. Services Inc.. 98 F. App’x 992, 994 n.12 (5th Cir. 2004). Consequently, the Court will not
grant Luevano’s motion, re-open his cause or consider his petition for a writ of habeas corpus.
Accordingly, the Court DENIES Luevano’s “Motion Emergency to Reopen Cases in Gen.”
(ECF No. 6). The Court additionally DENIES Luevano a certificate of appealability because
jurists of reason would not find it debatable whether the Court was correct in its rulings. The
Court also DENIES all pending motions, if any. The Court finally directs the District Clerk to
CLOSE this case.
SIGNED this 4th day of May, 2021.

UNITED STATES DISTRICT JUDGE

5

Case 3:10-cv-00128-KC Document 4 Filed 04/15/10 Page 1 of 7

IN-l-HEUNir^OSTATESDiSIRiCTeOmi5
FOR THE WESTERN DISTRICT OF TEXAS
EL PASO DIVISION
JAIME LUEVANO,
TDCJNo. 9340134,
Petitioner,
v.
GREG ABBOTT, Attorney General
of Texas, etal.,
Respondents.

§
§
§
§
§
§
§
§

EP-10-CV-128-KC

MEMORANDUM OPINION AND ORDER
Before the Court is Petitioner Jaime Luevano’s pro se petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. Therein, Luevano challenges two state-court convictions. After
reviewing the available records, the Court concludes that it should dismiss Luevano’s petition
without prejudice because he has not exhausted all remedies available in the state system. The
Court additionally concludes that it should deny Luevano a certificate of appealability.
BACKGROUND AND PROCEDURAL HISTORY
Luevano asserts he is currently in state custody as the result of two convictions in 2010
for burglary of a habitation.1 Luevano reports he received life and twenty-five-year prison
sentences in these cases from the 409th Judicial District Court of El Paso County, Texas.
The Court has liberally read Luevano’s petition.2 The Court understands him to claim the
trial court unconstitutionally selected and empaneled the jurors, the prosecution failed to disclose
evidence of false statements by police officers to the jury, the State fabricated the allegations in
State v. Luevano, Cause Nos. 20070D04788, 20070D04789 (409th Dist. Ct., El Paso County,
Tex. Mar. 4 2010).
2 See Haines v. Kerner, 404 U.S. 519, 520 (1972) (holding pro se pleadings to less stringent
standards than formal pleadings drafted by lawyers); see also Franklin v. Rose, 765 F.2d 82, 85 (6th Cir.
1985) (explaining liberal construction allows active interpretation of a pro se pleading to encompass any
allegation which may raise a claim for federal relief).

Case 3:10-cv-00128-KC Document 4 Filed 04/15/10 Page 2 of 7

the indictment, the State wrnngfi 11Ly-helrLhiro-in-jaij-for-s4-x^ontt^-aftgr^-TriTStna], his counsel'

provided ineffective assistance when he forced him to testify, and the trial court deprived him of
the right to represent himself. Luevano concedes “[t]his petition is ahead of time, in advance of
time-and-to beyond the future ... proceedings.”3 A review of court records maintained by the
Texas Court of Criminal Appeals on its web site4 confirms that Luevano has not submitted a
petition for discretionary review or state application for a writ of habeas corpus challenging
these convictions.5
LEGAL STANDARD
Section 2254 allows a district court to “entertain an application for a writ of habeas
corpus on behalf of a person in custody pursuant to the judgment of a state court only on the
ground that he is in custody in violation of the Constitution or laws or treaties of the United
States.”6 As a prerequisite to obtaining § 2254 relief, however, a prisoner must exhaust all
remedies available in the state system.7 This exhaustion requirement reflects a policy of federalstate comity “designed to give the State an initial ‘opportunity to pass upon and correct’ alleged
violations of its prisoners’ federal rights.’”8 It also prevents “unnecessary conflict between

3 Pet. 13 of 16 [Docket No. 1],
4 See http://www.cca.courts.state.tx.us/opinions.
5 Luevano has, however, filed three original writs of mandamus related to these cases. In re
Luevano, WR-58,920-03 (Tex. Crim. App. Jan 16, 2008); In re Luevano, WR-58,920-04 (Tex. Crim.
App. Oct. 22, 2008); In re Luevano, WR-58,920-05 (Tex. Crim. App. Jan 13, 2010).
6 28 U.S.C.A. § 2254(a) (West 2010).
7 28 U.S.C. § 2254(b)(1), (c); Fisher v. Texas, 169 F.3d 295, 302 (5th Cir. 1999).
Picard v. Connor, 404 U.S. 270, 275 (1971) (quoting Wilwording v. Swenson, 404 U.S. 249,
250 (1971)).

-2-

Case 3:10-cv-00128-KC Document 4 Filed 04/15/10 Page 3 of 7

courts equally bound to miardandjrotect4ights-seeured-by-t-he-Constitution. *’9'
A petitioner satisfies the exhaustion requirement when he presents the substance of his
habeas claims to the state’s highest court in a procedurally proper manner before filing a petition
in federal court.10 In Texas, the Court of Criminal Appeals is the highest court for criminal
matters.11 Thus, a Texas prisoner may satisfy the exhaustion requirement only by presenting
both the factual and legal substance of his claims to the Texas Court of Criminal Appeals in
either a petition for discretionary review or a state habeas corpus proceeding pursuant to Texas
Code of Criminal Procedure article 11.07.12
ANALYSIS
The rules governing § 2254 cases instruct federal district courts to screen petitions.13 “If
it plainly appears from the petition and any attached exhibits that the petitioner is not entitled to
relief in the district court, the judge must dismiss the petition and direct the clerk to notify the
petitioner.14
In the instant case, Luevano’s petition clearly shows that he has not presented his claims
in a procedurally proper manner to the state’s highest court.15 Thus, he has not “exhausted the

9 Ex Parte Roy all, 117 U.S. 241, 251 (1886).
10 Baldwin v. Reese, 541 U.S. 27, 29 (2004); Morris v. Dretke, 379 F.3d 199, 204 (5th Cir. 2004).
11 Richardson v. Procunier, 762 F.2d 429, 431 (5th Cir. 1985).
12 Tex. Crim. Proc. Code Ann. art. 11.07 (Vernon 2003 & Supp. 2008); Tigner v. Cockrell, 264
F.3d 521, 526 (5th Cir. 2001); Alexander v. Johnson, 163 F.3d 906, 908-09 (5th Cir. 1998).
13 U.S.C.S. § 2254 Proc. R. 4 (West 2010).
u Id.
15 Pet. 3 of 9 [Docket No. 2]; see Tex. Crim. Proc. Code Ann. art. 11.07, § 3(a) (“[T]he writ
must be made returnable to the Court of Criminal Appeals of Texas at Austin, Texas.”).

-3-

Case 3:10-cv-00128-KC Document 4 Filed 04/15/10 Page 4 of 7

lerTne law o
the State to raise .. . the question^] presented. 5)17 Thus, it is plain from the face of Luevano’s
petition that he has not satisfied the preconditions for review set forth in § 2254. Dismissal of
his petition for lack of exhaustion is therefore warranted so that he may fully pursue his state
remedies and then return to this Court, if he so desires.
CERTIFICATE OF APPEALABILITY
A petitioner may not appeal a final order in a habeas corpus proceeding “[u]nless a
circuit justice or judge issues a certificate of appealability.”18 Further, appellate review of a
habeas petition is limited to the issues on which a certificate of appealability is granted.19 In
other words, a certificate of appealability is granted or denied on an issue-by-issue basis, thereby
limiting appellate review solely to those issues on which a certificate of appealability is
granted.20 Although Luevano has not yet filed a notice of appeal, this Court nonetheless must
address whether he is entitled to a certificate of appealability.21
“28 U.S.C. § 2254(b)(1)(A).
17 28 U.S.C. § 2254(c).
18 28 U.S.C.A. § 2253(c)(1)(B) (West 2010).
19 See Lackey v. Johnson, 116 F.3d 149, 151 (5th Cir. 1997) (holding that, in regard to the denial
of relief in habeas corpus actions, the scope of appellate review is limited to the issues on which a
certificate of appealability is granted).
20 See 28 U.S.C.A. §2253(c)(3) (setting forth the narrow scope of appellate review in habeas
corpus matters); see also Lackey, 116 F.3d at 151 (holding that a certificate of appealability is granted on
an issue-by-issue basis, thereby limiting appellate review to those issues); but see United States v. Kimler,
150 F.3d 429, 431 & 431 n.l (5th Cir. 1998) (explaining the Fifth Circuit may address an issue not
certified by the district court if the movant makes (1) an explicit request, and (2) a substantial showing of
the denial of a constitutional right).
21 See U.S.C.S. § 2254 Proc. R. 11(a) (West 2010) (“The district court must issue or deny a
certificate of appealability when it enters a final order adverse to the applicant.”); Alexander v. Johnson,
211 F.3d 895, 898 (5th Cir. 2000) (explaining it is appropriate for a district court to address sua sponte
the issue of whether it should grant or deny a certificate of appealability, even before one is requested).

-4-

Case 3:10-cv-00128-KC Document 4 Filed 04/15/10 Page 5 of 7

:ial

rn

showing of the denial of a constitutional right.”22 In cases where a district court rejects a
petitioner’s constitutional claims on the merits, “[t]he petitioner must demonstrate that
reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.”23 To warrant a grant of the certificate as to claims that the district court
rejects solely on procedural grounds, the petitioner must show both that “jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a constitutional right
and that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.”24 Because the exhaustion prerequisite to federal habeas corpus review is well
established, the Court concludes that jurists of reason would not debate whether the procedural
ruling in this case is correct. Accordingly, the Court finds it should deny Luevano a certificate
of appealability.
CONCLUSION
For the reasons discussed above, the Court concludes that Luevano is not entitled to
federal habeas corpus relief at this time. Accordingly, the Court enters the following orders:
1.

The Court DISMISSES WITHOUT PREJUDICE Petitioner Jaime Luevano’s
pro se petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 for failure
to exhaust his state remedies.

2.

The Court DENIES Petitioner Jaime Luevemo a CERTIFICATE OF
APPEALABILITY.

22 28 U.S.C.A. § 2253(c)(2).
23 Slack v. McDaniel, 529 U.S. 473, 484 (2000).
24 Id.

-5-

Case 3:10-cv-00128-KC Document 4 Filed 04/15/10 Page 6 of 7

3.

The Court DENTES AS-MOQT-all^endiag-^aetieHS-in-this-caiiserif^cnvr

SO ORDERED.
SIGNED this 16th day of April 2010.

k/tHLEEN

CARt)ONE
UNITED STATES DISTRICT JUDGE

-6-

